Recard Press Inc., 228 West 36th Street, New Yark, N.Y.
Tel: (212) SIS-4848• Fax Na. (212) SDB-3141

STATE OF NEW YORK.
AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

Haward Daniels being duly sworn, deposes and says that deponent is
That

party

the action, and is aver 18 years

age.

the 5th day

February 2021 deponent served 3 copies the within
BRIEF IN DPPDSITIDN
the attorneys at the addresses below, and by the
method:

BY FEDERAL EXPRESS NEXT BUSINESS DAV DELIVERY
Barry Lee Dunn
Office the Kentucky Attorney General
700 Capital Avenue Suite 118
Frankfort. Kentucky
(502) SSS-5300

Attorneys for Petitioner

I, Haward Daniels, declare under penalty

correct, executed
served.

perjury under the laws the United States America that the
is true and
February 5, 2021, pursuant Supreme Court Rule 2S.5(c). All parties required be served, have been

Sworn to me this

February 5, 2021
Jasmine Williams
Notary Public. State New Yark
Na. OIWIS3S7S4S
llualified in llueens County
Expires September IS, 2023

Notary Public

Case Name: Cameron v. EMW Women's Surgical Center
Docket/Case No.

